HHS/OIG, Audit - "Review of Kansass Medicaid Payments for the Family
Preservation Program for the Period July 1, 2000, Through June 30, 2003,"
(A-07-06-03076)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Kansass Medicaid Payments for the Family Preservation Program for the Period
July 1, 2000, Through June 30, 2003," (A-07-06-03076)
March 12, 2008
Complete
Text of Report is available in PDF format (411 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the
State agency claimed allowable Medicaid payments for family preservation
services during State fiscal years (FY) 2001 through 2003 (July 1, 2000June 30,
2003) in accordance with expenditure limitations contained in the State plan.
The State agency did not assure that its $3,376,139 ($2,030,607 Federal share)
claim was equal to or less than the limit specified in the State plan.
Without such assurancesupported with auditable documentationwe are unable to
express an opinion on the reasonableness of the State agencys claim for
reimbursement on the Centers for Medicare and Medicaid Services (CMS) Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64)
reports.  The State agencys lack of internal controls was the cause of its
inability to provide such assurance.
We recommended that the State agency work with CMS to determine the allowability
of the $3,376,139 ($2,030,607 Federal share) for the audit period of State FYs
2001 through 2003.  The State agency concurred with our recommendation.